HHS/OIG-Audit--"Review of Unfunded Pension Costs of Blue Cross and Blue Shield of Mississippi, (A-07-97-01210)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Unfunded Pension Costs of Blue Cross and Blue Shield of Mississippi,"
(A-07-97-01210)
September 8, 1997
Complete Text of Report is available in PDF format
(995 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Unfunded Pension Costs
of Blue Cross Blue Shield of Mississippi (Mississippi) for Plan Years 1986 through
1995. Contributions were not made to the pension trust fund for Plan Years 1987
through 1991. Accordingly, Mississippi did not fund the pension costs identifiable
with its medicare segment during this period. As a result, Mississippi accumulated
unfunded pension costs of $482,549 as of January 1, 1996. Mississippi must separately
identify and eliminate this amount from the amortization components of future
pension costs. Mississippi accepted our recommendation.